                                          18532                             Federal Register / Vol. 73, No. 66 / Friday, April 4, 2008 / Notices

                                          responsibility for recordkeeping in                     proposed June 30, 2008, reporting date                This proposed notice is in accordance
                                          respect of assets or liabilities for that               with one exception. The Schedule O                    with the Privacy Act requirement that
                                          foreign branch resides at the U.S. branch               changes will remain on the same                       agencies publish their systems of
                                          or agency.) A separate FFIEC 002S must                  interim transition period that had been               records in the Federal Register when
                                          be completed for each managed or                        proposed, which covers the June 30,                   there is a revision, change, or addition.
                                          controlled non-U.S. branch and filed                    2008, through December 31, 2008,                      This system of records contains certain
                                          quarterly along with the U.S. branch or                 reporting dates.                                      administrative files for the purpose of
                                          agency’s FFIEC 002. The data from both                                                                        maintaining, archiving, and filing
                                          reports are used for: (1) Monitoring                    Request for Comment
                                                                                                                                                        records.
                                          deposit and credit transactions of U.S.                   Comments are invited on:
                                                                                                                                                        DATES: Effective Date: This system of
                                          residents; (2) monitoring the impact of                   a. Whether the information
                                                                                                  collections are necessary for the proper              records will become effective without
                                          policy changes; (3) analyzing structural                                                                      further notice on June 3, 2008, unless
                                          issues concerning foreign bank activity                 performance of the agencies’ functions,
                                                                                                  including whether the information has                 comments received on or before that
                                          in U.S. markets; (4) understanding flows
                                                                                                  practical utility;                                    date result in a contrary determination.
                                          of banking funds and indebtedness of                                                                             Comment Date: Comments on this
                                          developing countries in connection with                   b. The accuracy of the agencies’
                                                                                                  estimates of the burden of the                        new system of records will be
                                          data collected by the International                                                                           considered if we receive them at the
                                          Monetary Fund (IMF) and the Bank for                    information collections, including the
                                                                                                  validity of the methodology and                       addresses provided below no later than
                                          International Settlements (BIS) that are
                                                                                                  assumptions used;                                     5 p.m. Eastern Standard Time on May
                                          used in economic analysis; and (5)
                                                                                                    c. Ways to enhance the quality,                     5, 2008.
                                          assisting in the supervision of U.S.
                                          offices of foreign banks. The Federal                   utility, and clarity of the information to            ADDRESSES: In commenting, please
                                          Reserve System collects and processes                   be collected;                                         reference file code OIG–794–PN.
                                          these reports on behalf of all three                      d. Ways to minimize the burden of the               Because of staff and resource
                                          agencies.                                               information collections on respondents,               limitations, we cannot accept comments
                                                                                                  including through the use of automated                by facsimile (FAX) transmission.
                                          Current Actions                                         collection techniques or other forms of               However, you may submit comments
                                             In a Federal Register notice published               information technology; and                           using one of the following three ways
                                          on January 15, 2008 (73 FR 2491), the                     e. Estimates of capital or start up costs           (no duplicates, please):
                                          Board, on behalf of the agencies,                       and costs of operation, maintenance,                     1. Electronically. You may submit
                                          requested comment on a proposal to                      and purchase of services to provide                   electronically through the Federal
                                          implement a number of revisions to the                  information.                                          eRulemaking Portal at http://
                                          existing reporting requirements of the                    Comments submitted in response to                   www.regulations.gov. (Attachments
                                          FFIEC 002. The proposed revisions                       this notice will be shared among the                  should be in Microsoft Word, if
                                          would help to achieve consistency with                  agencies. All comments will become a                  possible.)
                                          the Reports of Condition and Income                     matter of public record. Written                         2. By regular, express, or overnight
                                          (Call Report) (FFIEC 031 and FFIEC 041)                 comments should address the accuracy                  mail. You may mail your printed or
                                          filed by insured commercial banks and                   of the burden estimates and ways to                   written submissions to the following
                                          state-chartered savings banks. The                      minimize burden including the use of                  address: Office of Inspector General,
                                          agencies also proposed to combine the                   automated collection techniques or                    Department of Health and Human
                                          FFIEC 002 and FFIEC 002S into one                       other forms of information technology                 Services, Attention: OIG–794–PN, Room
                                          OMB control number, 7100–0032. In                       as well as other relevant aspects of the              5246, Cohen Building, 330
                                          response to the January 15, 2008, notice,               information collection request.                       Independence Avenue, SW.,
                                          the agencies received four comment                                                                            Washington, DC 20201. Please allow
                                                                                                    Board of Governors of the Federal Reserve
                                          letters from a branch of a foreign bank,                System, April 1, 2008.
                                                                                                                                                        sufficient time for mailed comments to
                                          a federal agency, a bankers’                                                                                  be received before the close of the
                                                                                                  Robert deV. Frierson,
                                          organization, and a foreign banking                                                                           comment period.
                                                                                                  Deputy Secretary of the Board.                           3. By hand or courier. You may
                                          organization. One commenter supported
                                          the proposed changes and described its                  [FR Doc. E8–6991 Filed 4–3–08; 8:45 am]               deliver, by hand or courier, before the
                                          use of the data to analyze the effect of                BILLING CODE 6210–01–P                                close of the comment period, your
                                          quarterly developments on the U.S.                                                                            printed or written comments to the
                                          International Transactions Accounts.                                                                          Office of Inspector General, Department
                                          Two commenters had no comments on                       DEPARTMENT OF HEALTH AND                              of Health and Human Services, Cohen
                                          the proposed revisions, but did offer                   HUMAN SERVICES                                        Building, 330 Independence Avenue,
                                          comments on the use of International                                                                          SW., Washington, DC 20201. Because
                                          Financial Reporting Standards in                        Office of Inspector General                           access to the interior of the Cohen
                                          regulatory reports such as the FFIEC 002                                                                      Building is not readily available to
                                          and the FFIEC 002S. The last                            Privacy Act of 1974, New OIG Privacy                  persons without Federal Government
                                          commenter had no comments on the                        Act System of Records: Administrative                 identification, commenters are
                                          proposed revisions, but did suggest                     Files                                                 encouraged to schedule their delivery
                                          delaying the proposed implementation                    AGENCY:  Office of Inspector General                  with one of our staff members at (202)
                                          date for some of these revisions. After                 (OIG), HHS.                                           358–3141.
                                          considering these comments, the FFIEC                   ACTION: Notice of proposed new Privacy                   Inspection of Public Comments: All
                                          and the agencies have approved the                                                                            comments received before the end of the
ebenthall on PRODPC61 with NOTICES




                                                                                                  Act systems of records.
                                          revisions to the FFIEC 002 and the                                                                            comment period will be posted on
                                          FFIEC 002S as originally proposed.                      SUMMARY: The Office of Inspector                      http://www.regulations.gov for public
                                          However, the agencies will implement                    General (OIG) is proposing a new                      viewing. Hard copies will also be
                                          the changes as of the September 30,                     system of records, entitled                           available for public inspection at the
                                          2008, reporting date rather than the                    ‘‘Administrative Files’’ (09–90–0076).                Office of Inspector General, Department


                                     VerDate Aug<31>2005   15:24 Apr 03, 2008   Jkt 214001   PO 00000   Frm 00043   Fmt 4703   Sfmt 4703   E:\FR\FM\04APN1.SGM   04APN1
                                                                            Federal Register / Vol. 73, No. 66 / Friday, April 4, 2008 / Notices                                          18533

                                          of Health and Human Services, Cohen                     Policies, Procedures, and Restrictions                record is relevant and necessary to the
                                          Building, 330 Independence Avenue,                      on the Routine Use                                    requesting agency’s decision on the
                                          SW., Washington, DC 20201, Monday                          The Privacy Act permits OIG to                     matter.
                                          through Friday from 8:30 a.m. to 4 p.m.                 disclose information without an                          6. The system of records may be
                                          To schedule an appointment to view                      individual’s consent if the information               disclosed to student volunteers and
                                          public comments, phone (202) 619–                       is to be used for a purpose that is                   other individuals performing functions
                                          0089.                                                   compatible with the purposes for which                for the Department but technically not
                                                                                                  the information was collected. Any such               having the status of agency employees,
                                          FOR FURTHER INFORMATION CONTACT:     Joel                                                                     if they need access to the records in
                                                                                                  disclosure of data is known as a routine
                                          Schaer, OIG Regulations Officer, Office                 use. Accordingly, we are proposing to                 order to perform their assigned agency
                                          of External Affairs, (202) 619–0089; or                 establish the following routine use                   functions.
                                          Melissa McCurdy, Office of Counsel to                   disclosures of records maintained in the                 7. A record may be disclosed to
                                          the Inspector General, (202) 619–0335.                  system:                                               appropriate Federal agencies and
                                          SUPPLEMENTARY INFORMATION:      The Office                 1. Disclosure may be made to a                     Department contractors that have a need
                                                                                                  congressional office from the record of               to know the information for the purpose
                                          of Inspector General (OIG) proposes to
                                                                                                  an individual in response to an inquiry               of assisting the Department’s efforts to
                                          establish a new Privacy Act system of
                                                                                                  from the congressional office made at                 respond to a suspected or confirmed
                                          records, 09–90–0076, ‘‘Administrative
                                                                                                  the request of that individual.                       breach of the security or confidentiality
                                          Files, HHS/OS/OIG/OCIG.’’ The                                                                                 of information maintained in this
                                          Inspector General Act of 1978 (5 U.S.C.                    2. In the event of litigation,
                                                                                                  information from the system of records                system of records, and the information
                                          app.) established OIG ‘‘to conduct and                                                                        disclosed is relevant and necessary for
                                                                                                  may be disclosed to the Department of
                                          supervise audits and investigations                                                                           that assistance.
                                                                                                  Justice, to a judicial or administrative
                                          relating to the programs and operations’’
                                                                                                  tribunal, opposing counsel, and                       Safeguards
                                          of the Department of Health and Human
                                                                                                  witnesses, in the course of proceedings
                                          Services (HHS). Within OIG, the Office                                                                          OIG has safeguards in place for
                                                                                                  involving HHS, any HHS employee
                                          of Counsel to the Inspector General                     (where the matter pertains to the                     authorized users and monitors users to
                                          (OCIG): (1) Provides general legal                      employee’s official duties), or the                   ensure against unauthorized use. The
                                          services to OIG including, among other                  United States, or any agency thereof                  system will conform to all applicable
                                          things, advice and representation on                    where the litigation is likely to affect              Federal laws and regulations, and
                                          HHS programs and operations,                            HHS, or HHS is a party or has an                      Federal, HHS, and OIG policies and
                                          administrative law issues, and criminal                 interest in the litigation and the use of             standards as they relate to information
                                          procedure; (2) imposes program                          the information is relevant and                       security and data privacy.
                                          exclusions and civil money penalties on                 necessary to the litigation.                          Effects of the Proposed System of
                                          health care providers and litigates those                  3. In the event that a system of records           Records on Individual Rights
                                          actions within the department; (3)                      maintained by OIG to carry out its
                                          represents OIG in the global settlement                 functions indicates a violation or                      OIG proposes to establish this system
                                          of cases arising under the False Claims                 potential violation of law, whether civil,            of records in accordance with the
                                          Act; (4) represents OIG in personnel                    criminal, or regulatory in nature, and                principles and requirements of the
                                          actions; and (5) issues anti-kickback safe              whether arising by general statute or                 Privacy Act and will collect, use, and
                                          harbor regulations, renders advisory                    particular program statute, or by                     disseminate information only as
                                          opinions on OIG sanctions, and issues                   regulation, rule or order issued pursuant             prescribed therein. Data in this system
                                          special fraud alerts and other industry                 thereto, the relevant records in the                  will be subject to the authorized releases
                                          guidance.                                               system of records may be referred, as a               in accordance with the routine uses
                                                                                                  routine use, to the appropriate agency,               identified in this system of records
                                             In addition, in compliance with the
                                                                                                  whether Federal, State, local, or foreign,            notice.
                                          ‘‘Incident Reporting and Handling
                                                                                                  charged with the responsibility of                      OIG will take precautionary measures
                                          Requirements’’ set forth in the Office of
                                                                                                  investigating or prosecuting such                     to minimize the risks of unauthorized
                                          Management and Budget’s Memoranda
                                                                                                  violation or charged with enforcing or                access to the records and the potential
                                          07–16, Safeguarding Against and
                                                                                                  implementing the statute, or rule,                    harm to individual privacy or other
                                          Responding to the Breach of Personally                                                                        personal or property rights of applicants
                                          Identifiable Information, OIG is                        regulation or order issued pursuant
                                                                                                  thereto.                                              whose data are maintained in the
                                          incorporating the routine use language                                                                        system. OIG will make disclosures from
                                          into this new system of records as part                    4. In the event the Department deems
                                                                                                  it desirable or necessary, in determining             the proposed system in accordance with
                                          of our normal SORN review                                                                                     the Privacy Act. OIG does not anticipate
                                                                                                  whether particular records are required
                                          development process.                                                                                          an unfavorable effect on individual
                                                                                                  to be disclosed under the Freedom of
                                          Description of the Proposed System of                   Information Act, disclosure may be                    privacy as a result of the disclosure of
                                          Records                                                 made to the Department of Justice for                 information relating to individuals.
                                                                                                  the purpose of obtaining its advice.                    This proposed new system of records
                                             The ‘‘Administrative Files, HHS/OS/                     5. A record from this system of                    will not otherwise increase access to
                                          OIG/OCIG’’ system will specifically                     records may be disclosed to a Federal                 these records.
                                          enable OCIG to access and maintain                      agency, in response to its request, in                Daniel R. Levinson,
                                          records for the purpose of archiving and                connection with the hiring or retention
                                          filing records. The system will house                                                                         Inspector General.
                                                                                                  of an employee, the issuance of a
ebenthall on PRODPC61 with NOTICES




                                          various types of records and will permit                security clearance, the reporting of an               09–90–0076
                                          OCIG to search and retrieve memoranda,                  investigation of an employee, the letting
                                          opinions, correspondence, testimony,                    of a contract, or the issuance of a                   SYSTEM NAME:
                                          and other writings relevant to the                      license, grant, or other benefit by the                Administrative Files, HHS/OS/OIG/
                                          functioning of OCIG.                                    requesting agency, to the extent that the             OCIG.


                                     VerDate Aug<31>2005   15:24 Apr 03, 2008   Jkt 214001   PO 00000   Frm 00044   Fmt 4703   Sfmt 4703   E:\FR\FM\04APN1.SGM   04APN1
                                          18534                             Federal Register / Vol. 73, No. 66 / Friday, April 4, 2008 / Notices

                                          SYSTEM CLASSIFICATION:                                  involving HHS, any HHS employee                       POLICIES AND PRACTICES FOR STORING,
                                             None.                                                (where the matter pertains to the                     RETRIEVING, ACCESSING, RETAINING, AND
                                                                                                  employee’s official duties), or the                   DISPOSING OF RECORDS IN THE SYSTEM:
                                          LOCATION:
                                                                                                  United States, or any agency thereof                  STORAGE:
                                            Office of Inspector General (OIG),                    where the litigation is likely to affect                Records are stored in electronic form
                                          Department of Health and Human                          HHS, or HHS is a party or has an                      and paper, and maintained under secure
                                          Services, Room 5527, Wilbur J. Cohen                    interest in the litigation and the use of             conditions in limited access areas.
                                          Building, 330 Independence Avenue,                      the information is relevant and                       Computer server containing files are
                                          SW., Washington, DC 20201.                              necessary to the litigation.                          locked in controlled-access rooms.
                                          CATEGORIES OF INDIVIDUALS COVERED BY THE                   c. In the event that a system of records           Laptops that may contain files are
                                          SYSTEM:                                                 maintained by OIG to carry out its                    protected with whole-disk encryption.
                                            The system consists of information                    functions indicates a violation or                    RETRIEVABILITY:
                                          concerning persons mentioned in                         potential violation of law, whether civil,
                                                                                                                                                          These records are retrievable by
                                          opinions, memoranda, correspondence,                    criminal or regulatory in nature, and
                                                                                                                                                        certain personal identifiers, such as by
                                          testimony, and other writings relevant                  whether arising by general statute or
                                                                                                                                                        name, of the individuals covered by this
                                          to the Office of Counsel to the Inspector               particular program statute, or by                     system of record.
                                          General (OCIG) within OIG. Individuals                  regulation, rule or order issued pursuant
                                          mentioned may include:                                  thereto, the relevant records in the                  SAFEGUARDS:
                                            • Staff members and authors whose                     system of records may be referred, as a                 Office buildings in which these
                                          names are mentioned in memoranda,                       routine use, to the appropriate agency,               records are maintained are secured by a
                                          opinions, correspondence, testimony,                    whether Federal, State, local, or foreign,            variety of security systems. The
                                          and other writings;                                     charged with the responsibility of                    computer terminals used to access the
                                            • Individuals addressed in                            investigating or prosecuting such                     records are secured with passwords,
                                          memoranda, opinions, correspondence,                    violation or charged with enforcing or                encryptions, and other security devices,
                                          testimony, and other writings;                          implementing the statute, or rule,                    comply with all relevant computer
                                            • Attendees at meetings and                           regulation or order issued pursuant                   security procedures, are kept in rooms
                                          conferences described in memoranda,                     thereto.                                              that are locked at the close of the
                                          opinions, correspondence, testimony,                                                                          business day, and are generally
                                                                                                     d. In the event the Department deems
                                          and other writings; or                                                                                        accessible only to OCIG staff. Paper files
                                                                                                  it desirable or necessary, in determining
                                            • Any individual identified in                                                                              are stored in locked cabinets, in locked
                                                                                                  whether particular records are required
                                          connection with questions presented to                                                                        offices and are accessible to limited
                                                                                                  to be disclosed under the Freedom of
                                          OCIG.                                                                                                         members of OCIG on a need-to-know
                                                                                                  Information Act, disclosure may be
                                          CATEGORIES OF RECORDS IN THE SYSTEM:                    made to the Department of Justice for                 basis.
                                            The system will consist of                            the purpose of obtaining its advice.                  RETENTION AND DISPOSAL
                                          memoranda, opinions, correspondence,                       e. A record from this system of                      These records may be maintained for
                                          testimony, and other writings.                          records may be disclosed to a Federal                 an indefinite duration.
                                          AUTHORITY FOR MAINTENANCE OF THE SYSTEM:
                                                                                                  agency, in response to its request, in
                                                                                                                                                        SYSTEM MANAGER(S) AND ADDRESS:
                                                                                                  connection with the hiring or retention
                                            The authority for maintaining this                    of an employee, the issuance of a                       The agency official responsible for the
                                          system is found in the various statutes,                security clearance, the reporting of an               system policies and practices outlined
                                          regulations, rules, or orders pertaining                investigation of an employee, the letting             above is: The Chief Counsel, Office of
                                          to the subject matter of the memoranda,                 of a contract, or the issuance of a                   Counsel to the Inspector General,
                                          opinions, correspondence, testimony,                    license, grant, or other benefit by the               Department of Health and Human
                                          and other writings of the office, (e.g.,                                                                      Services, Wilbur J. Cohen Building,
                                                                                                  requesting agency, to the extent that the
                                          Inspector General Act (5 U.S.C. App.)).                                                                       Room 5527, 330 Independence Avenue,
                                                                                                  record is relevant and necessary to the
                                          PURPOSE(S):                                             requesting agency’s decision on the                   SW., Washington, DC 20201.
                                            In accordance with the Inspector                      matter.                                               NOTIFICATION PROCEDURE:
                                          General Act of 1978, this system is                        f. The system of records may be                       Any individual who wants to know
                                          maintained for the purposes of                          disclosed to student volunteers and                   whether this system of records contains
                                          maintaining a searchable record of                      other individuals performing functions                a record about him or her, who wants
                                          memoranda, opinions, correspondence,                    for the Department but technically not                access to his or her record, or who
                                          testimony, and other writings.                          having the status of agency employees,                wants to contest the contents of a
                                                                                                  if they need access to the records in                 record, should make a written request to
                                          ROUTINE USES OF RECORDS MAINTAINED IN THE
                                          SYSTEM INCLUDING CATEGORIES OF USERS AND
                                                                                                  order to perform their assigned agency                the system manager.
                                          THE PURPOSES OF SUCH USES:                              functions.
                                                                                                                                                        RECORD ACCESS PROCEDURES:
                                             a. Disclosure may be made to a                          g. A record may be disclosed to                      Same as notification procedures.
                                          congressional office from the record of                 appropriate Federal agencies and                      Requesters should also reasonably
                                          an individual in response to an inquiry                 Department contractors that have a need               specify the record contents being
                                          from the congressional office made at                   to know the information for the purpose               sought. (These access procedures are in
                                          the request of that individual.                         of assisting the Department’s efforts to              accordance with Department regulations
                                             b. In the event of litigation,                       respond to a suspected or confirmed
ebenthall on PRODPC61 with NOTICES




                                                                                                                                                        (45 CFR 5b.5(a)(2).)
                                          information from the system of records                  breach of the security or confidentiality
                                          may be disclosed to the Department of                   of information maintained in this                     CONTESTING RECORD PROCEDURES:
                                          Justice, to a judicial or administrative                system of records, and the information                  Contact the official at the address in
                                          tribunal, opposing counsel, and                         disclosed is relevant and necessary for               the System Manager(s) and Address
                                          witnesses, in the course of proceedings                 that assistance.                                      section above, and reasonably identify


                                     VerDate Aug<31>2005   15:24 Apr 03, 2008   Jkt 214001   PO 00000   Frm 00045   Fmt 4703   Sfmt 4703   E:\FR\FM\04APN1.SGM   04APN1
                                                                            Federal Register / Vol. 73, No. 66 / Friday, April 4, 2008 / Notices                                          18535

                                          the record and specify the information                  irritation, such as the Bovine Corneal                reasonable degree of certainty, that the
                                          to be contested and corrective action                   Opacity and Permeability (BCOP) test,                 approach would be useful for making
                                          sought with supporting justification.                   the Cytosensor Microphysiometer (CM)                  labeling decisions for AMCPs that
                                          (These procedures are in accordance                     test, and the EpiOcular test, and data                appropriately inform the user.
                                          with Department Regulations (45 CFR                     supporting the accuracy and                              NICEATM and ICCVAM are now
                                          5b.7).)                                                 reproducibility of these methods.                     conducting a preliminary evaluation of
                                                                                                  DATES: Submit nominations and data by                 the submission to determine its
                                          RECORD SOURCES CATEGORIES:
                                                                                                  May 19, 2008. Data submitted after this               completeness and adherence to
                                            The information for this system is                                                                          ICCVAM guidelines, which are available
                                                                                                  date will be considered in the
                                          obtained through a number of sources                                                                          at http://iccvam.niehs.nih.gov/
                                                                                                  evaluation, if feasible.
                                          including OCIG attorney, exchange of                                                                          SuppDocs/SubGuidelines/SD_
                                                                                                  ADDRESSES: Submit nominations and
                                          legal pleadings, documents, formal and                                                                        subg034508.pdf. If they decide to move
                                          informal discovery, program offices and                 data to Dr. William S. Stokes, NICEATM
                                                                                                  Director, NIEHS, P.O. Box 12233, MD                   forward with an evaluation, NICEATM
                                          component agencies, private attorneys,                                                                        and ICCVAM will convene an
                                          State and local governments, their                      EC–17, Research Triangle Park, NC,
                                                                                                  27709, (fax) 919–541–0947 (e-mail)                    independent peer review panel to
                                          agencies and instrumentalities, and                                                                           review the validation status of the
                                          officers of other Federal agencies and                  niceatm@niehs.nih.gov. Courier address:
                                                                                                  NICEATM, 79 T.W. Alexander Drive,                     proposed approach.
                                          the individuals involved.
                                                                                                  Building 4401, Room 3128, Research                    Request for Nominations of Scientific
                                          SYSTEMS EXEMPTED FROM CERTAIN PROVISIONS                Triangle Park, NC, 27709. Responses                   Experts
                                          OF THE ACT:                                             can also be submitted electronically via
                                             None.                                                the ICCVAM–NICEATM Web site                              NICEATM requests nominations of
                                                                                                  (http://iccvam.niehs.nih.gov/contact/                 scientists with relevant knowledge and
                                          [FR Doc. E8–7034 Filed 4–3–08; 8:45 am]                                                                       experience to serve on the peer review
                                                                                                  FR_pubcomment.htm).
                                          BILLING CODE 4152–01–P                                                                                        panel should it be convened. Areas of
                                                                                                  FOR FURTHER INFORMATION CONTACT:
                                                                                                                                                        relevant expertise include, but are not
                                                                                                  Other correspondence should be                        limited to:
                                          DEPARTMENT OF HEALTH AND                                directed to Dr. William S. Stokes (919–                  • Biostatistics
                                          HUMAN SERVICES                                          541–2384 or niceatm@niehs.nih.gov).                      • Human and veterinary
                                                                                                  SUPPLEMENTARY INFORMATION:                            ophthalmology, with an emphasis on
                                          National Toxicology Program (NTP);
                                          NTP Interagency Center for the                          Background                                            evaluation and treatment of chemical
                                          Evaluation of Alternative Toxicological                                                                       injuries
                                                                                                     In June 2004, the EPA Office of                       • In vivo ocular toxicity testing
                                          Methods (NICEATM); Non-Animal                           Pesticide Programs informed NICEATM                      • In vitro ocular toxicology
                                          Methods and Approach for Evaluating                     that they were developing, via a                         • Test method validation
                                          Eye Irritation Potential for                            subgroup of the Pesticide Program                        Each nomination should include the
                                          Antimicrobial Cleaning Products                         Dialogue Committee, a non-animal                      nominee’s name, affiliation, contact
                                          (AMCPs): Request for Nominations for                    assessment approach for evaluating eye                information (i.e., mailing address,
                                          an Independent Expert Panel and                         irritation potential and labeling                     e-mail address, telephone and fax
                                          Submission of Relevant Data                             requirements for AMCPs. Subsequently,                 numbers), curriculum vitae, and a brief
                                          AGENCY:  National Institute of                          the EPA in collaboration with the                     summary of relevant experience and
                                          Environmental Health Sciences                           Alternative Testing Working Group                     qualifications. Nominations previously
                                          (NIEHS), National Institutes of Health                  (ATWG) developed a non-animal                         submitted to NICEATM in response to
                                          (NIH).                                                  approach for this limited group of                    an earlier request for scientific experts
                                                                                                  products. The ATWG is comprised of                    for a possible peer panel review of in
                                          ACTION: Request nominations for an
                                                                                                  seven consumer product companies                      vitro ocular test methods used to
                                          independent expert panel and
                                                                                                  (Clorox, Colgate Palmolive, Dial,                     evaluate AMCPs (Federal Register Vol.
                                          submission of relevant data.
                                                                                                  EcoLabs, Johnson Diversey, Procter &                  70, No. 53, pp. 13512–13513, available
                                          SUMMARY: At the request of the U.S.                     Gamble, and SC Johnson). The Institute                at http://iccvam.niehs.nih.gov) do not
                                          Environmental Protection Agency                         for In Vitro Sciences, Inc. (IIVS), which             need to be resubmitted.
                                          (EPA), the Interagency Coordinating                     coordinated the EPA–ATWG
                                          Committee on the Validation of                          collaboration, performed additional                   Request for Data
                                          Alternative Methods (ICCVAM) is                         testing to complete parallel sets of in                  NICEATM invites the submission of
                                          planning to assess the validation status                vivo and in vitro data, and prepared a                relevant data and information on
                                          of a proposed non-animal approach for                   background review document (BRD)                      AMCPs or related substances obtained
                                          evaluating the eye irritation potential of              describing the final approach. More                   from (1) human testing or experience
                                          AMCPs that meets hazard classification                  information concerning this submission                including reports from accidental
                                          and labeling requirements. On behalf of                 is available at: http://                              exposures, (2) rabbits using the standard
                                          ICCVAM, NICEATM requests:                               iccvam.niehs.nih.gov/methods/ocutox/                  eye test or the low volume eye test
                                             1. Nominations of expert scientists to               AMCP.htm.                                             (LVET), and (3) in vitro test methods for
                                          serve as members of an independent                         In January 2008, IIVS submitted the                assessing ocular irritation, such as the
                                          peer review panel.                                      BRD, An In Vitro Approach for EPA                     Bovine Corneal Opacity and
                                             2. Submission of relevant data and                   Toxicity Labeling of Anti-Microbial                   Permeability (BCOP) test, the
                                          information on AMCPs or related                         Cleaning Products, to NICEATM. The                    Cytosensor Microphysiometer (CM) test,
                                          substances obtained from (1) human                      EPA and the ATWG requested that                       and the EpiOcular test, including data
ebenthall on PRODPC61 with NOTICES




                                          testing or experience including reports                 NICEATM and ICCVAM use                                supporting the accuracy and
                                          from accidental exposures, (2) rabbits                  information within the BRD to conduct                 reproducibility of these methods.
                                          using the standard eye test or the low                  a technical review of the proposed                      Although data can be accepted at any
                                          volume eye test (LVET), and (3) in vitro                approach to determine whether                         time, data received by May 19, 2008 will
                                          test methods for assessing ocular                       ICCVAM could assure the EPA, with a                   be considered during the ICCVAM


                                     VerDate Aug<31>2005   15:24 Apr 03, 2008   Jkt 214001   PO 00000   Frm 00046   Fmt 4703   Sfmt 4703   E:\FR\FM\04APN1.SGM   04APN1
